The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
             UNITED STATES INTERNATIONAL TRADE COMMISSION

                                        WASHINGTON, DC 20436


December 13, 2013                                                          OIG-LL-024

Chairman Williamson:

This memorandum transmits the Independent Auditor’s Report on Compliance with Laws and
Regulations (OIG-AR-14-07) associated with the audit of the Commission’s financial statements for
fiscal year 2013. The results of this report were presented by the auditors and discussed at the exit
conference on December 12, 2013.

We contracted with the independent certified public accounting firm, Castro & Company LLC, to
conduct the financial statement audit. The contract required that the audit be conducted in accordance
with U.S. generally accepted government auditing standards and these auditing standards require a
report on Compliance with Laws and Regulations to be produced as part of the audit.

The auditors did not identify any instances of noncompliance that would have a direct or material
effect on the determination of financial statement amounts.

Throughout the audit and at its conclusion, my office followed procedures and conducted a final
review designed to assure that the work performed by non-Federal auditors complied with the auditing
standards. Our final review disclosed no instances where Castro & Company did not comply, in all
material respects, with the U.S. generally accepted government auditing standards; however, this final
review cannot be construed as an audit, and is not intended to enable us to express, and we do not
express, any opinion on the Commission’s compliance with laws and regulations. Castro & Company
is solely responsible for this report dated December 9, 2013, and the conclusions expressed in the
report.

Thank you for the cooperation and courtesies extended to both Castro & Company and my staff during
this audit.

Sincerely,




Philip M. Heneghan
Inspector General
                                                                                 1711 King Street
                                                                                 Suite C
                                                                                 Alexandria, VA 22314
                                                                                 Phone: 703.229.4440
                                                                                 Fax: 703.859.7603
                                                                                 www.castroco.com
                               Independent Auditor’s Report on
                             Compliance with Laws and Regulations


Inspector General
U.S. International Trade Commission

We have audited the financial statements of the U.S. International Trade Commission (ITC) as of
and for the year ended September 30, 2013, and have issued our report thereon dated December 9,
2013. We conducted our audits in accordance with the auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and, Office of
Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial
Statements.

The management of ITC is responsible for complying with laws and regulations applicable to ITC.
We performed tests of its compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts, and certain other laws and regulations specified in the Office of Management
and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements,
including the requirements referred to in the Federal Managers’ Financial Integrity Act of 1982
(FMFIA). We limited our tests of compliance to these provisions, and we did not test compliance
with all laws and regulations applicable to ITC.

The results of our tests of compliance with applicable laws and regulations, and government-wide
policies, described in the preceding paragraph identified no instances of noncompliance that is
required to be reported under Government Auditing Standards or OMB guidance.

Providing an opinion on compliance with certain provisions of laws and regulations, and
government-wide policies was not an objective of our audit, and accordingly, we do not express such
an opinion.

This report is intended solely for the information and use of management and the Office of Inspector
General of ITC, OMB, GAO, and Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




December 9, 2013
Alexandria, VA
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
